                             CLOSEOUT FOR M-91020010

                                                                --
allegations of misconduct in science brought to him by a panelist, the coinplainant,-
                                                                               in connection




-proposal. It was alleged that the subjects proposed experiments this.NSF proposal that
 had already been done. It was also alleged that with past NSF supported work the subjects:
 a) published repetitious papers; b) provided limited credit for the work of others in their
 published papers; and c) falsified data.

       OIG reviewed relevant proposals, reviewers' comments, complainant's remarks, and
program officer's notes. OIG contacted the complainant who provided additional
infonnation.

       It was alleged that the subjects' proposal contained experiments that had already been
accomplished. It was noted that the PIS submitted a letter with their proposal to explain the
duplication and ~nodificationof past experiments. Repetition and/or modification of
experiments is fundamental to how science functions and that proposing to do them is not a
misconduct-in-science issue. It is during the technical review of pr8posals that the scientific
merit for repeating experiments is evaluated.

        It was alleged that the subjects' papers subrl~ittedfor publication to different journals
were repetitive. Journals in the scientific community select papers for publication based on
their merit. Papers submitted for pitblication are reviewed by scientists with the appropriate
scientific backgrounds. It is these reviewers and editors who have the responsibility to
decide whether or not papers contain repetitive work, and if so, if they are acceptable for
publication. The subjects' papers examined by OIG involved an ongoing long-tenn
investigation that utilized experiments with similar overall design. However, the selected
experimental parameters with these similarly designed experiments were different. This
allegation has no substance.

        It was alleged that the subjects provided only limited credit in their publications for
 work of other scientists, specifically for work of the complainant. OIG examined the
 subjects' papers provided by the complainant and found that the subjects did cite the
 complainant appropriately. For example, in one case, the subjects discussed the results of an
 experiment that they acknowledged was originally performed by the complainant; they
compared their results with those of the complainant and cited the relevant paper. This
allegation has no substance.

         It was alleged that the subjects falsified data. Evidence provided by the complainant
rested solely on the concern that the statistical variance of data in the subjects' articles was
less than what was generally observed by other workers in the field. The complainant
provided OIG with eight of the subjects' articles representing publications in five scientific
journals spanning,$ period o f seven years. Each of these journals has a review process to
determine a paper's scientific merit prior to selection fhr publication. The individual papers
contained the data and in some instances the formulas used to calculate the statistics. Better
statistical results do not directly mean lnisconduct in science. Tfiere are nuinerous reasons
why statistical results of experiments may be exceptional. These exceptional results would
be questioned by reviewers and readers alike if the reported variance was distinctly different
froin what was generally observed in that particular field without some acceptable
explanation. The fact that so many of the subjects' papers have been published in peer-
reviewed scientific journals over this seven-year period would indicate that peers in the field
accepted the data and their variance. This allegation has no substance.

        The OIG determined that the four allegations in this case were either not issues of
scientific misconduct or contained no substance.

       The OIG closed this case.


cc: Staff Scientist, Deputy AIG-Oversight, AIG-Oversight, Counsel to IG, IG
